<html>
<title> - SMALL BUSINESS INFORMATION SHARING: COMBATING FOREIGN CYBER THREATS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




  SMALL BUSINESS INFORMATION SHARING: COMBATING FOREIGN CYBER THREATS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                            JANUARY 30, 2018

                               __________








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      
        
        
        

            Small Business Committee Document Number 115-053
              Available via the GPO Website: www.fdsys.gov
              
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-359                         WASHINGTON : 2018               
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
              
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                      RALPH NORMAN, South Carolina
                           JOHN CURTIS, Utah
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Steve Chabot................................................     1
Hon. Nydia Velazquez.............................................     2

                               WITNESSES

Mr. Howard Marshall, Deputy Assistant Director, Cyber Division, 
  Federal Bureau of Investigation, Washington, DC................     4
Mr. Richard Driggers, Deputy Assistant Secretary, Office of 
  Cybersecurity and Communications, National Protection and 
  Programs Directorate, United States Department of Homeland 
  Security, Washington, DC.......................................     6

                                APPENDIX

Prepared Statements:
    Mr. Howard Marshall, Deputy Assistant Director, Cyber 
      Division, Federal Bureau of Investigation, Washington, DC..    21
    Mr. Richard Driggers, Deputy Assistant Secretary, Office of 
      Cybersecurity and Communications, National Protection and 
      Programs Directorate, United States Department of Homeland 
      Security, Washington, DC...................................    29
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
  SMALL BUSINESS INFORMATION SHARING: COMBATING FOREIGN CYBER THREATS

                              ----------                              


                       TUESDAY, JANUARY 30, 2018

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:00 a.m., in Room 
2360, Rayburn House Office Building. Hon. Steve Chabot 
[chairman of the Committee] presiding.
    Present: Representatives Chabot, Radewagen, Kelly, Blum, 
Comer, Fitzpatrick, Marshall, Norman, Velazquez, Evans, Lawson, 
Chu, Espaillat, and Schneider.
    Chairman CHABOT. Good morning. I call this hearing to 
order.
    We want to thank everyone for being here.
    Over the past few years, this Committee has focused its 
attention on an issue that is become increasingly important for 
small businesses, cybersecurity. In past hearings, we have 
learned that a cyber attack on a small business can have 
serious consequences, not only for the business itself, but for 
its customers and employees and business partners alike. We 
have heard from small business owners and cybersecurity experts 
and government officials, and there is no question that 
improving cybersecurity for America's small businesses should 
continue to be a top priority, especially for this Committee.
    In today's global economy, small businesses are 
increasingly turning to foreign technology to remain 
competitive in the world marketplace. However, these same 
products and services also provide new opportunities for 
foreign cyber criminals to infiltrate small business 
information technology systems, allowing them to access 
sensitive and valuable information.
    A recent survey found that 81 percent of small businesses 
are concerned about a cyber attack, but only 63 percent have 
the most basic cybersecurity measures in place to combat such 
an attack.
    Cyber attacks pose a higher risk for small businesses, 
since most do not have the means to hire specialized employees 
or pay the average $32,000 in damages should they be hit with a 
cyber attack. And, cyber threats for small businesses are on 
the rise.
    This Committee has also found that the federal government 
is stepping up its efforts to both prevent and mitigate cyber 
attacks by coordinating and distributing cybersecurity 
resources directly to small businesses. There is strong 
bipartisan support from both chambers of Congress and the 
President to increase American protection from foreign cyber 
attacks.
    However, small businesses are still hesitant to engage with 
the federal government. This is often due to uncertainty 
surrounding legal liabilities, concerns about privacy and data 
protection, and a number of other factors. Still, federal 
information sharing is crucial to ensuring that small 
businesses have every resource possible to combat cyber threats 
and the confidence they need to engage with the federal 
agencies tasked with protecting them.
    That is why the Ranking Member and I recently introduced 
H.R. 4668, the Small Business Advanced Cybersecurity 
Enhancements Act of 2017, to increase the defensive measures 
available for small businesses undergoing or concerned about a 
cyber attack, and to incentivize additional information sharing 
between the private sector and the federal government.
    This bipartisan legislation seeks to safeguard small 
business from cyber attacks in a few simple ways. First, the 
bill establishes Small Business Development Centers, SBDCs, as 
the primary liaison for federal information sharing for small 
businesses. This bill also ensures that small businesses that 
engage with SBDCs receive the same protections and exemptions 
provided by the Cybersecurity Information Sharing Act, or CISA.
    Further, this bill would ensure that any policies or 
rulemaking adopted by any federal agency as a result of federal 
information sharing does not unfairly burden small businesses. 
It would also expand liability protections for small businesses 
and engage with the federal government in good faith. 
Ultimately, this legislation removes the barriers many small 
business owners face when confronted with a cyber threat, 
encouraging them to work with the federal government, not fear 
it.
    As I mentioned before, many cyber threats towards small 
businesses come at the hands of foreign bad actors, sometimes 
foreign governments, in an attempt to undermine the United 
States' national security and economy. In fact, the Department 
of Homeland Security recently published a public notice 
exposing a vulnerability in a notable security camera company. 
Hikvision, one of the top five largest manufacturers of 
security cameras worldwide, is 42 percent owned by the Chinese 
government, and in 2017, the Department of Homeland Security 
learned that many of its cameras were able to be hacked and 
remotely controlled. While Hikvision has worked with DHS to 
remedy the flaw, the problem remains that many small businesses 
that do not engage with the government or DHS regularly, and 
that is probably the majority of them, may not be even aware of 
the security flaw. Had the problem gone unnoticed, many small 
businesses would not have known that they were vulnerable to 
attack.
    So we look forward to hearing from our witnesses here today 
to learn more about how the federal government is working to 
address these important problems, and further, what 
preventative measures small businesses can use to protect 
themselves from falling victim to cyber attacks.
    And I would now like to yield to the Ranking Member, Ms. 
Velazquez, for her opening statement.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    Ever since Russia used cyber attacks to influence the 
outcome of our 2016 elections, cybersecurity has been thrust to 
the forefront of national discussions. In today's world, 
everything from editorial integrity, to national security, to 
private sector trade secrets are at risk of cyber exploitation.
    In recent years, cybercriminals have increasingly targeted 
small businesses. Forty percent of all cyber attacks are 
focused on companies with less than 500 employees. This may be 
because only 14 percent of small businesses reported having in 
place a plan for keeping their company cyber secure.
    Among the most prolific users of cyber attacks are Chinese 
and Russian companies. In particular, a Chinese company has 
been documented to target American small businesses in order to 
obtain backdoor access to trade secrets and national security 
information.
    As hackers and other bad actors, including foreign agents, 
continue to evolve their cyber attacks, strengthening the 
federal government's engagement with small firms is crucial. 
The agencies we will hear from today are on the forefront of 
that fight. The FBI, which is testifying today, has worked with 
the Small Business Administration to develop InfoGard, a 
collaborative effort to conduct regional workshops to counsel 
small firms on cybersecurity. The Department of Homeland 
Security, which is also represented in our panel, has created a 
new effort requiring private companies pursuing government 
contracts to be held to the same standards as the awarding 
agency to strengthen cybersecurity.
    While the goal of this effort is laudable, we must ensure 
that small firms have the resources to meet new cybersecurity 
requirements. To this end, I am proud to join the Chairman on 
H.R. 4668, the Small Business Advanced Cybersecurity 
Enhancements Act of 2017. This bill will establish a central 
small business cybersecurity assistance unit coordinated by SBA 
and federal agencies, including DHS. Furthermore, the act will 
create a regional small business cybersecurity assistance unit 
within each Small Business Development Center, or SBDC. This 
will help to bring much needed hands-on cybersecurity training 
to small firms across the country.
    Today's hearing is an opportunity to learn more about the 
government efforts, specifically DHS and the FBI, to assist 
small businesses in the protection of themselves and the 
government's national security.
    So let me thank all of our witnesses for testifying today. 
I would like to especially acknowledge the men and women 
serving in all divisions of the FBI. We know that you do 
extraordinary work under challenging circumstances and that 
your agency, unfortunately, sometimes comes under political 
fire. Now more than ever, we need skilled, impartial 
professionals serving in the Bureau, and so we thank you for 
the work that you and your colleagues do.
    With that, let me thank all witnesses for being here today. 
I look forward to today's hearing and I yield back the balance 
of my time.
    Chairman CHABOT. Thank you very much. The gentlelady yields 
back.
    Now I would like to explain very briefly relative to our 
timing and things, and I would also say that if Committee 
members have opening statements they can please submit them for 
the record.
    And we operate under the 5-minute rule here. Basically, 
each of you gets 5 minutes to testify and then we get 5 minutes 
to ask questions back and forth, Republican, Democrat.
    There is a lighting system. The green light will be on for 
4 minutes. The yellow light will be on for a minute to let you 
know it is getting time to wrap up, and then the red light will 
come on, and we would hope you could stay within those 
parameters. We will give you a little leeway.
    And I would now like to introduce our distinguished panel 
here; small, but very distinguished.
    Our first witness today is Mr. Howard Marshall. He has 
served as Deputy Assistant Director of the Cyber Intelligence 
Outreach and Support Branch at the FBI since August 2016. In 
this role, Mr. Marshall works to identify and defeat cyber 
threats targeting the United States through strategic 
partnerships and intelligence coordination. Mr. Marshall began 
his career with the FBI in 1997 and has held a variety of 
positions both inside and outside of the Cyber Division. And we 
thank you for being here today.
    And our second witness will be Mr. Richard Driggers. Mr. 
Driggers serves as the National Protection and Programs 
Directorate Deputy Assistant Secretary for the Office of 
Cybersecurity and Communications at the Department of Homeland 
Security. And if that is not the longest title we have had in 
this Committee ever, it is pretty close. And he is responsible 
for developing and implementing operational programs to 
strengthen the security of the nation's critical 
infrastructure.
    Mr. Driggers joined DHS in 2003, and most recently was the 
Principal Deputy Director for Operations for the National 
Cybersecurity and Communications Integration Center. He is also 
a former United States Air Force combat controller. We thank 
you very much for your service and for being here today, both 
you gentlemen. We appreciate it.
    And Mr. Marshall, you are recognized for 5 minutes.

STATEMENTS OF HOWARD MARSHALL, DEPUTY ASSISTANT DIRECTOR, CYBER 
  DIVISION, FEDERAL BUREAU OF INVESTIGATION; RICHARD DIGGERS, 
    DEPUTY ASSISTANT SECRETARY, OFFICE OF CYBERSECURITY AND 
 COMMUNICATIONS, NATIONAL PROTECTION AND PROGRAMS DIRECTORATE, 
         UNITED STATES DEPARTMENT OF HOMELAND SECURITY

                  STATEMENT OF HOWARD MARSHALL

    Mr. MARSHALL. Chairman Chabot, Ranking Member Velazquez, 
and members of the Committee.
    Chairman CHABOT. And if you would not mind just pulling the 
mic a little closer.
    Mr. MARSHALL. Sure.
    Chairman CHABOT. Make it easier for the folks out there to 
hear. Thank you.
    Mr. MARSHALL. Thank you for the invitation to provide 
remarks on the FBI's role in helping small businesses defend 
against cyber threats. We consider engagement with the private 
sector to be a significant factor in our mission to identify, 
pursue, and defeat nefarious cybercriminals and enemies of the 
United States.
    As the Committee is well aware, the growing number and 
sophistication of cyber threats poses a critical risk to U.S. 
businesses and the impact of a successful attack can be 
devastating to small businesses in particular. We continue to 
see an increase in the scale and scope of reporting on 
malicious cyber activity that can be measured by the amount of 
corporate data stolen or deleted, personally identifiable 
information compromised, or remediation costs incurred by U.S. 
victims.
    Some of the more prevalent arising cyber threats to small 
businesses from both domestic and foreign cyber actors include 
business email compromise; ransomware; the criminal targeting 
of data, including customer data, financial data, or 
intellectual property; and the growing risk posed by 
vulnerabilities of IOT devices, Internet of Things.
    In light of these and other cyber threats to U.S. 
businesses, the FBI has made private sector engagement a key 
component of our strategy for combatting cyber threats. 
Recognizing the ever-changing threat landscape, the FBI is 
enhancing the way it communicates with private industry. 
Traditionally, the Bureau has used information developed 
through its investigations shared by intelligence community 
partners or provided by other law enforcement agencies to 
understand the threat posed by nation states and criminal 
actors.
    However, we are now also looking to integrate private 
industry information into our intelligence cycle to enhance our 
ability to identify, prioritize, and respond to both emerging 
and ongoing threats. Private industry has unique insight into 
their own networks and may have information as to why their 
company or their sector may be an attractive target for 
malicious cyber activity. Companies may also be able to share 
intelligence on the types of attempted attacks they experience. 
We believe it is important the FBI integrate this type of data 
into its own intelligence cycle. This type of information 
sharing enables us to provide more specific, actionable, and 
timely information to our industry partners so they can protect 
their systems in a proactive manner.
    The FBI disseminates information regarding specific threats 
to the private sector through various reporting mechanisms. 
Public service announcements published by the Internet Crime 
Complaint Center provide timely and practical information to 
U.S. businesses and individuals on the latest threats of scams. 
Private industry notifications, PINs, offer contextual 
information about ongoing or emerging cyber threats and FBI 
liaison alert system reports provide technical indicators 
gleaned through investigations or intelligence. These 
communication methods facilitate the sharing of information 
with a broad audience or specific sector and are intended to 
provide recipients with actionable intelligence to aid in 
victim notifications, threat neutralization, and other 
investigative efforts.
    The FBI also believes it is critical to maintain strong 
relationships with our private sector partners to allow for 
successful responses to cyber attacks. One example of an 
effective public-private relationship is the National Cyber 
Forensic and Training Alliance, a nonprofit 501(c)(3) 
corporation focused on identifying, mitigating, and 
neutralizing cybercrime threats globally. Working hand-in-hand 
with private industry, law enforcement, and academia, the 
NCFTA's mission is to provide a neutral, trusted environment 
that enable two-way information sharing, collaboration, and 
training.
    The NCFTA works directly with 136 member organizations from 
the banking, retail, critical infrastructure, healthcare, and 
government sectors. Their analysts have real-time access to FBI 
agents, analysts, and the actionable intelligence they collect. 
The FBI Cyber Division regularly coordinates initiatives for 
engagement with private sector partners to prevent threats and 
ultimately close intel gaps. In recent years, we have launched 
public awareness campaigns or open houses to educate businesses 
on serious cyber threats.
    In 2016, the FBI collaborated with DHS, U.S. Secret 
Service, Department of Health and Human Services, and the 
National Council on Information Sharing and Analysis Centers to 
host conferences and workshops at FBI and Secret Service field 
offices across the country to educate businesses on the 
ransomware threat. The FBI and Secret Service jointly hosted 
these workshops in 14 key cities, targeting small, medium, and 
large organizations. Over 5,700 individuals were briefed during 
this campaign. Similarly, in 2017, the FBI collaborated with 
DHS, Secret Service, and NCISACs to host workshops across the 
country on business email compromise.
    The Cyber Division engages directly with businesses in 
other ways as well. We host or participate in briefings, 
conferences, workshops, and other meetings providing strategic 
level information to key executives throughout industry. These 
briefings include both classified and unclassified discussions 
regarding cyber threats. Over the past 5 years, the FBI Cyber 
Division has completed nearly 2,800 such engagements, not 
counting the many informal contacts and interactions we have 
with businesses in our field offices on a regular basis.
    When a small business has been victimized by a cybercrime 
and reaches out to the FBI for assistance, we coordinate with 
the individual business to determine the best course of action 
to address the incident. The FBI's approach in working with 
potential actual victims of cyber intrusions or attacks is to 
first and foremost, and to the best of our ability, use our 
processes to protect the victim from being revictimized. We at 
the FBI appreciate the Committee's efforts in making cyber 
threats to small businesses a focus and to committing to 
improving how we can work together to better defend U.S. 
businesses from cyber adversaries.
    We thank you for the opportunity to speak about our cyber 
outreach efforts. We look forward to discussing these issues in 
greater detail and answering any questions you may have.
    Chairman CHABOT. Thank you very much.
    Mr. Driggers, you are recognized for 5 minutes.

                 STATEMENT OF RICHARD DRIGGERS

    Mr. DRIGGERS. Chairman Chabot, Ranking Member Velazquez, 
and members of the Committee, thank you for the opportunity to 
discuss the ongoing efforts to enhance the cybersecurity of 
America's small businesses.
    The Department of Homeland Security serves a critical role 
in safeguarding and securing cyberspace, which is a core 
Homeland Security mission. At DHS, we assist with protecting 
civilian federal government networks, share information related 
to cybersecurity risks in an incident, and provide technical 
assistance to federal agencies, as well as State and local 
governments, international partners, and the private sector. 
The Department of Homeland Security, the federal Bureau of 
Investigation, the Small Business Administration, and other 
interagency partners play a crucial role in helping small 
businesses identify and mitigate cybersecurity risks.
    Cyber threats remain one of the most significant strategic 
risks for the United States, threatening the national security, 
economic prosperity, and public health and safety. Global cyber 
events or incidents such as the WannaCry ransomware incident 
last May and the NotPetya malware incident in June are examples 
of malicious actors leveraging cyberspace to create disruptive 
effects and cause economic loss. We have also seen advanced 
persistent threat actors target small businesses to leverage 
their infrastructure and their relationships with larger 
businesses to gain access to networks of major and high-value 
assets that operate components of the Nation's critical 
infrastructure. DHS has confidence that these threat actors are 
actively pursuing their ultimate long-term campaign goals, and 
DHS and the FBI remain ever-vigilant and active with incident 
response and have published multiple joint technical alerts to 
enable network defenders to identify and take action to reduce 
exposure to malicious activity.
    These incidents remind us that small businesses play a key 
role in ensuring the security, reliability, and resilience of 
the Nation's critical infrastructure and that small businesses 
can be easy targets across a complex attack surface. This is 
especially evident when analyzing cyber risk to many of our 
Nation's supply chains. Critical infrastructure assets can be 
small businesses themselves or may be dependent on small 
businesses to provide essential services or materials. It is 
essential that small businesses implement common cybersecurity 
standards and practices to protect themselves and their 
customers. Small businesses face the same threats as large 
businesses, but do not necessarily have access to the same 
resources. DHS is working with our interagency partners to 
close this gap for cybersecurity information sharing, training, 
as well as resources.
    As the Committee knows, DHS and the U.S. Small Business 
Administration have partnered to develop a strategy to help 
small- and medium-size businesses enhance their cybersecurity 
planning and risk management efforts. Small businesses are 
diverse in size and complexity, with varying needs for 
improving their cybersecurity posture. Because of this, it is 
imperative that we work with Small Business Development Centers 
across the country, as well as other information-sharing 
organizations. The federal government offers a suite of 
services and capabilities that can help small businesses 
improve their cybersecurity. For some, it may be simple 
training on cybersecurity beset practices or the implementation 
of basic cyber hygiene. For others, it may be performing 
complex vulnerability assessments to understand appropriate 
mitigation steps based on their specific risk profile. DHS 
offers a range of services to meet these needs and continues to 
pursue new opportunities to provide assistance.
    In developing the small business cybersecurity strategy 
with the Small Business Administration, we have identified over 
40 federal programs or initiatives that are helpful in 
assisting small businesses raise awareness of their 
cybersecurity posture. Some programs were created specifically 
for small businesses, while others provide assistance across a 
broader business community.
    As our Nation continues to evolve and new threats emerge, 
we must not only develop more effective methods to protect our 
information systems, but also find more cost-effective and 
efficient ways to increase public awareness and access to 
cybersecurity resources. The Cybersecurity Act of 2015 
established DHS as the federal government's central hub for the 
automated sharing of cyber threat indicators and defensive 
measures. Automated indicator sharing is part of the 
Department's efforts to create an ecosystem in which as soon as 
a company or federal agency observes malicious activity, the 
indicator associated with that activity can be shared in real-
time at machine speed with all of our partners that are 
leveraging DHS's automated indicator-sharing service. This 
real-time sharing capability can limit the scalability of many 
attacks and thereby increasing the cost for the adversaries, as 
well as reducing the impact of malicious cyber activity. The 
automated indicator-sharing service is a relatively new 
capability, and we expect the volume of threat indicators 
shared through this system to substantially increase as 
technical standards, software, and hardware supporting the 
system continues to be refined and more businesses sign up. 
This approach to collective defense helps ensure that small- 
and medium-size businesses are protected using the best cyber 
defense available information.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    Chairman CHABOT. Thank you very much.
    And I will now recognize myself to open the questions. And 
Mr. Driggers, I will start with you.
    And I would like to begin with the Hikvision matter, and, 
first of all, it is my understanding that the Chinese 
government owned at least 40 percent of the company and maybe 
up to 42 is the figure we have been getting. Is that correct?
    Mr. DRIGGERS. Yeah, that is what I have been seeing in 
reporting as well, sir.
    Chairman CHABOT. Okay, thank you. And as I mentioned in my 
opening statement, there is a real concern regarding 
vulnerabilities in some of Hikvision's security cameras. I 
understand that the weakness made cameras remotely exploitable, 
and I also understand that when DHS became aware of the 
security exposure there was an advisory notice from DHS's cyber 
emergency response team and that Hikvision worked with DHS to 
fix the problem.
    My question is this, is it likely that some small 
businesses could still be susceptible to this cybersecurity 
flaw? And how is DHS working to inform small businesses that 
they could be exposed to this risk?
    Mr. DRIGGERS. So we publish our alerts on the US-CERT 
website, so that is open to the web, so anybody can access 
those. With access to this particular flaw, we did work with a 
research community. We discovered the vulnerability. We worked 
with the company and they put out a software update that 
mitigated the impacts of this particular exploitation. That is 
kind of standard practice that we do at the Department of 
Homeland Security across many different companies' devices and 
software, working to understand what vulnerabilities exist, and 
working with the companies to publish updates to their software 
so that we can close down and mitigate vulnerabilities. 
Certainly, if there are small businesses that are using devices 
and they are not patching those system or updating the 
software, they could be exposed to the vulnerability if they 
have not covered down on that particular update.
    Chairman CHABOT. Okay, thank you.
    Mr. Marshall, how do you determine whether a cyber attack 
on a small business warrants FBI intervention? Is there a 
monetary loss, threshold, or some other indicator to assess an 
appropriate level of response and/or dedication of resources 
from the FBI?
    Mr. MARSHALL. There is no hard-and-fast rule, Mr. Chairman. 
Generally, there are a number of variables we will look at. It 
depends on the field office that has jurisdiction over the 
particular attack. It depends on the prosecutorial discretion 
of the U.S. Attorney's Office. Certainly, we are not going to 
dedicate resources to something that may not be prosecuted. The 
loss amount is certainly one of those things we would consider, 
and it is a variable in terms of say a $100,000 loss in New 
York City may not draw our attention or resources, it may not 
get prosecuted, but a $100,000 loss in Louisville, Kentucky, 
likely will. So there are a number of different factors.
    We would also look at the attack vector, and if there was 
any interest, we still maintain our counterintelligence 
authorities and interest. We may look at it even though the 
loss amount is low and maybe it is not going to get prosecuted 
as a crime, but there are a number of different variables that 
would lead someone to make that determination.
    Chairman CHABOT. Okay, thank you.
    Mr. Driggers, let me go back to you. Does the Department of 
Homeland Security, or the FBI for that matter, leverage the 
Small Business Development Centers to assist small businesses 
in identifying and mitigating cybersecurity risks? And how 
effective has that partnership been if you do do that?
    Mr. DRIGGERS. So we certainly work with many different 
information-sharing organizations, the Small Business 
Development Centers being one of those. Whether or not the 
Small Business Development Center itself has the technical 
acumen and the subject matter expertise to actually assist us 
with the particular support that we are providing a small 
business, that depends, but we certainly--I do not want to say 
100 percent of the time we work through the Small Business 
Development Center, but if the small business is engaged with a 
Small Business Development Center and that is the way they want 
to engage the government, we would certainly go that route.
    Chairman CHABOT. Okay. Thank you. And I have time for about 
one more question so I will go back to you, Mr. Marshall.
    What steps are being taken by the FBI, and also by DHS, to 
guarantee that small businesses' personal information and IT 
data is protected? Are there any efforts to ensure that their 
information cannot be used against them in the future by some 
bad actors?
    Mr. MARSHALL. Well, certainly, we would treat any 
information that we would come across through the course of 
investigation as evidence. And so it would absolutely get that 
protection from us. Our first and foremost responsibility when 
we respond to a scene is to pursue a criminal investigation. So 
we are not interested in collaborating necessarily with any 
regulatory agency. Certainly, we do not disseminate it to 
anyone else not directly involved in the investigation.
    Chairman CHABOT. Okay. My time is expired, but let me just 
go real quick.
    I assume DHS has policies in place to make sure that their 
personal information that they have is protected so it is not 
getting in the wrong hands. Is that correct, Mr. Driggers?
    Mr. DRIGGERS. That is correct. We have a couple different 
information sharing handling caveats that we use, or handling 
processes that we use. We use a traffic light protocol, which 
is an international standard for safeguarding information. And 
we also use our liability coverage protections that we got with 
the Cybersecurity Information Sharing Act of 2015.
    Chairman CHABOT. Okay. I thank both of you. My time is 
expired.
    The Ranking Member is recognized for 5 minutes.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    I would like to address this question to both of you.
    Based on your knowledge of and interaction with small 
firms, what is your opinion of the general state of small 
business cybersecurity? And is the federal government doing 
enough to help them and your agencies to improve it?
    Mr. MARSHALL. I would tell you that they are underprepared. 
Even in the biggest firms, cybersecurity is oftentimes 
considered a cost center and the general thought process is 
that it is not necessarily the cost of doing business. So even 
in your bigger firms, cybersecurity is usually not something 
that is being considered. So as you go down the pecking order 
in terms of size when it comes to business ventures, when you 
get down to small businesses, I would tell you they are 
underprepared.
    Ms. VELAZQUEZ. Thank you.
    Yes, sir?
    Mr. DRIGGERS. I would agree with Mr. Marshall. I would also 
say that each individual business needs to take a look at their 
risk profile. Not all businesses need the same cybersecurity 
posture. Cybersecurity mitigation and systems can be extremely 
costly so, you know, depending on what type of small business 
you are, the type of data you are holding, the services, 
whether you belong to a critical supply chain, you need to look 
at all of those factors in determining what types of security, 
cybersecurity mitigation steps you need to put in place.
    Ms. VELAZQUEZ. Thank you.
    Mr. Marshall, information sharing between the government 
and the private sector is critical to reducing national 
security breaches and cybercrime against Americans. Can you 
tell us how preventive information sharing is more effective 
for small firms from solely a cost perspective and how it 
assists the FBI in its role fighting cyber attacks?
    Mr. MARSHALL. So to Mr. Driggers' point, not everybody has 
the same set of concerns. Not everybody is established or 
created a security posture that is forward leaning enough. So 
the hope is that the information we provide to them, whether it 
is indicators of compromise or a general awareness message 
about good cyber hygiene, the hope is that they can drill down 
and focus and spend whatever resources they are willing to 
commit to cybersecurity on those things. If we can provide them 
with IP addresses that they can block at their firewall, that 
is certainly more than what they would have had had we not 
provided information of that nature. We think it is absolutely 
critical to get the message out as far and wide as possible on 
the prevention side. Certainly, the fewer of these we have to 
investigate the better, obviously, but the more information we 
can provide the better. And we do tend to try to over 
communicate. Certainly, there are things that cannot be 
released because they are classified, either because of the way 
they were collected or what they are telling us about the 
adversary, but to the degree that we can declassify and push 
that information out we do, and we do it as quickly as 
possible.
    Ms. VELAZQUEZ. So Mr. Driggers, we have 28 million small 
businesses in our country and knowledge is power. So if they 
are not aware of the threats in terms of cybersecurity attacks, 
they will not take any preventive measures. How can the federal 
government work in a way that raises awareness, especially for 
those small contractors that are doing business within the 
federal marketplace?
    Mr. DRIGGERS. So I think that information sharing really 
underpins all the services and capabilities that we have at DHS 
with our cybersecurity programs. It is foundational to getting 
as much information out as we can, whether that is highly 
technical data and providing some context around that; or 
whether it is threat information or things like that, getting 
stuff declassified as much as we possibly can; or whether that 
is sharing machine-to-machine or just putting stuff out on our 
website or working with the FBI or these other information-
sharing organizations, such as the ISACs or the ISAOs, Small 
Business Development Centers.
    We also, obviously, work very closely under the National 
Infrastructure Protection Partnership model with the Sector 
Coordinating Councils. And so I think it is important to raise 
the awareness. We certainly need to do that. We need to use all 
available resources to do that and to get the information out 
as much as we possibly can.
    Those organizations or those small businesses that are part 
of the supply chain, we are certainly sharing information with 
those individuals. Awareness is an issue. One of the objectives 
that you will see when we publish the small business strategy 
is a consolidation of resources and dedicated resources to do 
this outreach to the small business community to make sure that 
they understand what programs are available to assist them with 
their cybersecurity posture.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    Chairman CHABOT. The gentlelady's time is expired.
    The gentleman from Kentucky, Mr. Comer, is recognized for 5 
minutes.
    Mr. COMER. Thank you, Mr. Chairman.
    My first question for either witness, can you all walk me 
through your agency's protocol for responding to cyber threat 
indicators or reports of a cyber attack from a small business? 
In other words, what information do you need and how do you get 
the information?
    Mr. MARSHALL. Sure. So we would get the information to our 
field offices one of two ways. Hopefully, there is an ongoing 
established relationship with the victim, either they are a 
member of InfoGard or some other group that has allowed us to 
create that relationship. If not, they tend to go through IC3 
and report it there and then it is pushed to the appropriate 
field office. We would then have probably the cyber program 
coordinator in that field office make an assessment of what was 
written and then make contact, depending, again, depending upon 
the size of the breach, what was reported initially. If it is 
big enough, there would be probably coordination at the federal 
level here in Washington, D.C., but with field offices in 56 
different locations, that would generically be how it would 
come to us. Then we would make an assessment probably through a 
phone call with the victim or somebody representing the victim 
whether or not to send resources and actually start opening 
investigation and start that process.
    Mr. COMER. Many small businesses do not have preventive 
procedures in place to thwart a cyber attack before it happens. 
What do you suggest small businesses do to safeguard themselves 
against potential threats?
    Mr. MARSHALL. Well, there are a number of things they can 
do, and I would suspect the best thing they could do is elevate 
the necessity for cybersecurity within their own organizations. 
Hire capable, competent people to help protect data. Create a 
culture within the organization that promotes security. It has 
got to be something you do every day. It cannot be done after 
the fact. So that would be my advice, is they need to be 
thinking about it on the front end.
    Mr. DRIGGERS. I think there are some basic things that 
really all businesses can do. And some of these basic things 
individuals can do at home as well. You know, the bottom line 
is that an adversary is going to use the least cost tactic to 
get into a network, and so any time you can raise your security 
posture by doing simple basic things, they are going to bypass 
you and move on to the next target that may be more available 
so that they do not have to spend as many resources.
    Certainly, backing up critical data is important for small 
businesses, particularly those that are holding a lot of 
sensitive, personal information about their customers' 
protecting their mobile devices, making sure that there is the 
ability to track, lock, as well as wipe any device that could 
be stolen or lost; protecting your organization against malware 
by making sure that you have a good patching schedule for 
software updates. A lot of companies that produce software and 
produce devices on a regular basis also produce security 
updates or software updates to those, and so it is important 
that you take advantage of that and you update your software, 
as well as protecting your data with passwords, two-factor 
authentication, changing default passwords on devices. These 
default passwords are available on the web, so it is important 
when you buy a new device that you change the default passwords 
on those. And I think some simple training for your employees 
about phishing attacks and the fact that those exist. That is a 
very low-tech, easy way for adversaries to get into networks. 
So doing that training for your employees is pretty low cost, 
and I think there is training available on the web for that.
    Mr. COMER. Thank you, Mr. Chairman. I yield back.
    Chairman CHABOT. The gentleman yields back.
    The gentleman from South Carolina, Mr. Norman, is 
recognized for 5 minutes.
    Mr. NORMAN. Thank you, Mr. Chairman.
    I live in a rural district. A lot of small businesses. What 
would you say that the FBI, DHS could do to, I guess, avert the 
threat that they have? And secondly, to get people to talk 
about it. A lot of these firms will not talk about it because 
it is, for whatever reason, it is embarrassing. Either Mr. 
Driggers or Mr. Marshall, how would you respond to that?
    Mr. DRIGGERS. Well, I think with regard to talking about 
it, I mean, that is an issue. Talking about it publicly could 
be an issue for a particular company. But what we want them to 
do is call the FBI or call the Department of Homeland Security, 
the National Cybersecurity and Communications Integration 
Center, so that we can take the steps necessary to help 
mitigate whatever incident happened, so that we can provide 
assistance to the impacted victim, and I think, even more 
importantly, learn what happened, develop analysis, and develop 
indicators so that we can share that more broadly so that other 
cyber network defenders can take advantage of the information. 
That said, when we do that we anonymize the information. We 
protect the identity of the victim through those information-
sharing protocols that I talked about earlier.
    Mr. MARSHALL. I would further that by saying maybe a better 
understanding of the fact that when you are a victim, we are 
going to continue to treat you as a victim. This is not a 
``gotcha game.'' This is not a, hey, we are going to run and 
tell a regulator or a State regulator that you were not 
properly prepared or defensed against these type of attacks. I 
understand the stigma to a degree because who wants to do 
business with someone that cannot protect their data? And you 
see that in small firms, and you see it in big firms, too. But 
what it will take to get over that stigma, I am not entirely 
sure.
    We push the message repeatedly that, to Mr. Driggers' 
point, please call us. We certainly cannot do anything if we 
are not aware of it. But beyond that, pushing the message of 
better cybersecurity is probably all we can do.
    Mr. NORMAN. What is your opinion? DHS oversees the National 
Cybersecurity and Communications Integration Center, which 
basically encourages the public and private sectors to swap 
information. Is this reliable? Is it worth the money? What is 
your take on that?
    Mr. DRIGGERS. So it is absolutely reliable, and it has 
allowed us to, quite frankly, thwart many attacks to the 
analysis that we have done and the indicator sharing that we 
have pushed out either through our Automated Indicator Sharing 
System, which is, as I said in my opening statement, is a 
machine-to-machine, near real-time, as well as just publishing 
technical alerts with the technical information in there so 
that cyber network defenders can also take advantage of that, 
that are not necessarily leveraging that automated system. A 
lot of these technical alerts, the analysis is done at the 
National Cybersecurity and Communications Integration Center, 
but it is representative of whole government. So there is a lot 
of different interagency partners that are there to include the 
intelligence community as well as the FBI.
    Mr. NORMAN. I yield back, Mr. Chairman.
    Chairman CHABOT. The gentleman yields back.
    The gentleman from Florida, Mr. Lawson, who is the Ranking 
Member of the Subcommittee on Health and Technology, is 
recognized for 5 minutes.
    Mr. LAWSON. Thank you very much, Mr. Chairman. And welcome 
to the Committee.
    And you all may already be aware of H.R. 4668 introduced by 
the chair here. Can you describe what challenges exist in the 
cybersecurity sphere as it relates to small business? How this 
bill may help to alleviate those challenges?
    Mr. DRIGGERS. I certainly think the focus on small 
businesses and, quite frankly, I appreciate the Committee and 
the Chairman's focus on small businesses, particularly with 
regard to their cybersecurity. I think that putting more focus, 
making sure that we are attentive to the small business 
community and make sure that they are aware that there are 
resources that exist in the federal government that can help 
them and assist them with their cybersecurity activities and 
posture, that there are organizations like the 56 field offices 
that Mr. Marshall talked about, as well as the National 
Cybersecurity Communications Integration Center, that those 
organizations exist to provide assistance, to protect your 
information, to protect your identity. But the bottom line is 
we exist to support your efforts.
    That said, we also want to work with the various different 
information-sharing organizations that are existing. The 
private sector has self-organized to create information-sharing 
and analysis centers, information-sharing and analysis 
organizations, the Small Business Development Centers. And we 
want to certainly work with them and through them to make sure 
that we are raising awareness about the various different 
programs that the federal government has to offer.
    Mr. LAWSON. Okay. Mr. Marshall, do you want to comment?
    Mr. MARSHALL. Anything that promotes cybersecurity would be 
beneficial. I referenced the NCFTA in my opening remarks. The 
original was opened in Pittsburgh, Pennsylvania, several years 
ago. It was wildly successful. It includes some smaller 
businesses, but we are expanding into New York. We are 
expanding into Los Angeles. And that model is one that we think 
is very effective.
    Mr. LAWSON. Okay. When the question was asked earlier about 
small businesses in rural areas, how can these really small 
businesses--you know, I have a lot of rural areas back in my 
district. What incentives can you give to these ``mom-and-pop'' 
operations to really share cybersecurity data, and what do they 
get? What kind of cybersecurity will they inherit? You know, 
they are just a small-time operation.
    Mr. MARSHALL. Hopefully, what they get, and we touched on 
this a little bit earlier, what they get are indicators of 
compromise and things that they can do quickly, cheaply, and 
effectively to try to stop some of the potential attacks 
against them. I do not know that they give up much more than 
their time to participate in things like InfraGard or even the 
business email compromise open houses or the ransomware open 
houses.
    What they get is a better understanding of how the threat 
impacts them. A lot of these small businesses do not even know 
what business email compromise is. They probably do not know 
what phishing is. They probably do not know what ransomware is.
    So just the hour that it would take to attend a meeting in 
an FBI field office or Secret Service field office to better 
understand the threat and get those things, as Mr. Driggers 
referred to, those things that will help them focus what they 
can invest on cybersecurity. They can really drill down and 
make sure that they are doing that very well. It will not stop 
everything, but to the point made earlier, if it makes you a 
less attractive target, then it is worth its investment in 
time.
    Mr. LAWSON. The incentives to you, Mr. Driggers, that you 
might use is that they will grasp anything that they think is 
going to be harmful to their business operations, so how do you 
approach them?
    Mr. DRIGGERS. Well, we approach them with the protections 
that we afford them, that we were given the authority for, to 
offer liability protection for information that they share with 
us. And I will tell you that just from a cultural perspective 
within DHS, particularly within the National Cybersecurity and 
Communications Integration Center that we call the NCCIC, 
protecting the identity of a victim underpins all the services 
and programs and the Information Sharing Protocols that we 
have. So you can rest assured, if you are going to share 
information with the NCCIC, that we are going to protect the 
identity of you. So there is a protection there, as well as a 
liability protection.
    But to Mr. Marshall's point, just raising awareness, 
understanding that these types of threats are out there or 
these types of risk are out there, and doing some of the basic, 
very low-cost things that I kind of laid out before with regard 
to patching your networks, training your staff on email or on 
phishing attacks. You know, making sure that you have a simple 
policy in place that, you know, if there is a network email 
password that one employee has one password, that type of a 
thing, so you do not share passwords.
    Mr. LAWSON. Okay. Thank you, Mr. Chairman. I yield back.
    Chairman CHABOT. Thank you. The gentleman's time is 
expired.
    The gentlelady from American Samoa, Mrs. Radewagen, who is 
the Chairman of the Subcommittee on Health and Technology, is 
recognized for 5 minutes.
    Mrs. RADEWAGEN. Talofa and good morning. And I want to 
thank the Chairman for holding this hearing on this important 
issue.
    As the Chairman of the Health and Technology Subcommittee, 
cybersecurity is something I care about deeply, and I want to 
thank you, Mr. Marshall and Mr. Driggers, for testifying before 
us today. Now, you gentlemen have already answered my first 
question, and I thank you for that.
    My second issue is with foreign cyber threats, especially 
Chinese are out in our neck of the woods. The Chinese are 
making massive inroads with my neighbors in the South Pacific. 
And Mr. Marshall, what steps is the FBI taking to safeguard 
against sophisticated, state-backed cyber attackers? 
Furthermore, and this may be outside of the scope of this 
hearing, is there any technical assistance the United States 
may be able to provide for my neighbors who do not have the 
ability to counter these threats?
    Mr. MARSHALL. I am not quite sure exactly which neighbors 
you are referring to. We get a tremendous amount of assistance 
from the NSA, from the agency. We certainly partner regularly 
with DHS. But we have a tremendous amount of technical 
assistance that helps us identify those threats and assess 
their intelligence value, and then come up with a comprehensive 
strategy to either mitigate them or monitor them.
    Mrs. RADEWAGEN. My home district is American Samoa, as you 
may know, and so my neighbors are the Independent Nation of 
Samoa, Fiji, Tonga, and that part of the Pacific.
    Mr. MARSHALL. We have a very good friend not that far away 
in Australia, and we do a lot of collaborative work with our 
Five Eye partners, of which they are one.
    Mrs. RADEWAGEN. Thank you very much. I yield back the 
balance of my time, Mr. Chairman.
    Chairman CHABOT. Thank you very much. The gentlelady yields 
back.
    The gentleman from Iowa, Mr. Blum, who is Chairman of the 
Subcommittee on Agriculture, Energy, and Trade, is recognized 
for 5 minutes.
    Mr. BLUM. Thank you, Chairman Chabot. And thank you to our 
panelists today for being here.
    First question, kind of broad, I know, but how bad is this 
problem? I am a small businessman. I go back to my district and 
I talk to small business people every week and, you know, I can 
say, oh, you know, hey, cyber hacking, it is a big problem. It 
is a big deal. I do not think they really believe me. I mean, 
how bad is this problem? How can we quantify this? Is it 
getting better? Getting worse?
    Mr. MARSHALL. Well, it is definitely getting worse.
    Mr. BLUM. As evidenced by what?
    Mr. MARSHALL. It is bad and getting worse. The number of 
cases that are referred for investigation. The number of 
attacks that are thwarted that we know that have been 
prevented. All of these numbers indicate a rise.
    Mr. BLUM. A rise is a 2 percent rise? It has doubled? What 
kind of increase are we talking about?
    Mr. MARSHALL. So if you wanted to narrow the question just 
a little bit further to look at something like business email 
compromise or ransomware, we are talking about in the 
neighborhood of 40 to 50 percent growth year over year. I do 
not have the exact numbers in front of me. Now, our hope is 
certainly that we can begin to do things as technology evolves 
and gives us other investigative opportunities that maybe we 
can figure out what the private sector had or maybe tamp some 
of these down. Indeed, I think that is happening.
    Mr. BLUM. Is organized crime involved in this at all?
    Mr. MARSHALL. Certainly, they are involved in it. I would 
say there are organized criminals around the world that have 
figured out how to branch into the cyberspace.
    Mr. BLUM. I guess I do not mean organized criminals. I 
mean, organized crime, as in the Mafia and drug cartels and 
organizations like that?
    Mr. MARSHALL. Yes. And you would be surprised at the areas 
in which they are looking. You mentioned drug cartels. If you 
were able to penetrate someone's air traffic system to 
determine or identify U.S. surveillance planes, would you be 
better or worse off? Things of that nature. Places where you 
would not normally expect to see.
    Mr. BLUM. You bring that up. I fly 130 times a year, so I 
do care. I assume our air traffic control system is 
unbelievably secure. Not that it could not happen, but.
    Mr. MARSHALL. It is, but it is not the only technology out 
there that helps monitor what is in the sky. And I use that 
just as an example. Can you monitor activity along the border--
this may be a question better for you than for me--through 
introducing on somebody's network? Yes, you probably can. Would 
that be information that a drug cartel would be interested in? 
Sure, it would. So the answer to your question is yes.
    Mr. BLUM. I assume some of these operations are relatively 
sophisticated?
    Mr. MARSHALL. Yes.
    Mr. BLUM. And maybe this would be a question for you, Mr. 
Driggers, Homeland Security. Are more of the cyber hackers 
domestic or are they foreign? And are they individuals or are 
they countries?
    Mr. DRIGGERS. So I do not have the specific details as to 
whether they are foreign or domestic, or whether they are 
individuals or they are nation states. Certainly, we can make 
the assumption that all of those categories of adversary are 
working hard every day. They are certainly getting more 
sophisticated and they are getting more persistent, and we have 
seen that over the past at least 3 or 4 years.
    But I also want to preference, particularly with the small 
business, it does not take sophistication to exploit a 
vulnerability in a small business. And I think all small 
businesses need to assume that they have some type of 
vulnerability that exists within their networks or the devices 
that they are using. And so it is really important that, 
because a lot of small businesses do not have the resources to 
really put in place very sophisticated cyber defense 
mechanisms, but they do have the resources to do the low-cost 
things that I talked about, and I think that that should be the 
focus and the awareness that we are talking about. We need to 
make sure that they are doing the basics with regard to 
cybersecurity hygiene, training their staff, and that they know 
who to call if there is a particular issue.
    Mr. BLUM. I have often heard that warfare of the future 
will not be about bullets and bombs; it will be about bits and 
bytes. So this is a war. Are we winning the war or are we 
losing the war?
    Mr. MARSHALL. As it pertains to the general public becoming 
more cybersecurity aware, I would say we are losing. Again, 
security is one of the last things people consider. Whether you 
are a small businessman or whether you are pulling a laptop out 
of its box for the first time when you set it up at home, these 
are just not things that we have been trained to think about. 
So in that regard I would say we are probably losing.
    Mr. BLUM. Mr. Driggers, are we winning the war or are we 
losing the war?
    Mr. DRIGGERS. So I will answer the same way Mr. Marshall 
did. I think if we look at the large businesses, particularly 
those that are designated as nationally critical 
infrastructure, and those from a risk profile that the 
Department of Homeland Security, you know, on a day-to-day 
basis interacts with, I think that they have certainly raised 
their game. But I think that there is a huge chasm between 
those individual businesses and the ones that are medium and 
small size.
    Mr. BLUM. Thank you, gentlemen, and I yield back the time I 
do not have. Thank you.
    Chairman CHABOT. Okay. The gentleman yields back.
    And I just have one final question. When we have been 
discussing malware, just for those that may be watching at home 
or may see the transcript of this or whatever, we are 
essentially talking about your computer, your files, 
photographs, documents being seized by some criminal element or 
blackmailer or something that says I have got them now. I am 
not releasing this. I am not going to let you have access to 
your own computer unless you pay me X amount of money within a 
certain amount of time. And I guess that can happen to 
individuals on their home computer, or this is a Small Business 
Committee, so we are obviously most directly trying to help 
small businesses across the country. It can happen to anybody, 
but that is what we are talking about. Correct? I see you are 
both nodding.
    If that should happen to a citizen or a small business, 
what should he or she do at that point? And either one of you 
or both of you, if you would like to.
    Mr. MARSHALL. So the Bureau does not have an official 
position. What you are referring to is ransomware. The Bureau 
does not have an official position as to whether or not a 
victim of ransomware should, in fact, pay the ransom in order 
to get their data back. We have discussed a couple times that 
the important thing is to back up your data consistently so 
when this happens you can just ignore the request for ransom.
    One of the things we would ask victims to consider is the 
fact that, one, they are being attacked by a criminal, so the 
promise of returning your data after payment should be 
considered by the person making the demand. The other thing is 
a lot of the malware variants now are locking data permanently. 
And you can pay a ransom, you can pay 100 times the ransom, 
there is no technical way to unlock our data.
    So there is no formal advice. Different companies, big and 
small, have different types of responses to this, but we would 
ask that people consider the fact that a criminal is the one 
that is making the demand.
    Chairman CHABOT. And I misspoke. I meant to say ransomware 
when I said malware, but it is a form of that.
    Mr. Driggers, anything?
    Mr. DRIGGERS. I would agree with Mr. Marshall. We do not 
necessarily have an official position. The individual business 
needs to make their own risk determination as to whether or not 
what action they take in terms of responses to some type of 
ransomware attack.
    Chairman CHABOT. Thank you very much.
    The gentleman from New York, Mr. Espaillat, is recognized 
for 5 minutes.
    Mr. ESPAILLAT. Thank you, Chairman.
    Mr. Marshall, the FBI's Cyber Division addresses a wide 
variety of issues, including nontraditional forms of 
cybercrimes. What is the most common form of cyber attack your 
division encounters? Is it different from small business 
complaints that you process on a regular basis? Are businesses 
coming forward as well?
    Mr. MARSHALL. Sure. I would tell you the most frequent 
attack vector is spear phishing. It happens repeatedly, over 
and over and over again, and we have talked about the amount of 
money it costs to have good cybersecurity and cyber hygiene. 
The bottom line is if somebody can send out 10 million emails, 
it just takes one employee not paying attention to click on it 
to thwart your multimillion investment in cybersecurity. I will 
not go down the laundry list of breaches that we have had in 
the last year, but I think a lot of them have that component in 
common. And I do not have an exact number for you, but a vast 
majority of them are through a spear phish campaign.
    Mr. ESPAILLAT. Okay. And Mr. Driggers, the Obama 
administration made efforts to increase cybersecurity by 
creating a federal privacy panel and creating sanctions to 
block those that pose a significant threat. How are these 
efforts beneficial to small businesses? And what more remains 
to be done in this particular area?
    Mr. DRIGGERS. Well, Congressman, I do not have a lot of 
details on the panel. I can certainly take that back and get 
the information and respond to you.
    Mr. ESPAILLAT. And finally, I will ask both of you. I have 
had several discussions with experts regarding cybersecurity in 
general, and they have told me that basically, if somebody 
wants to hack you, if they are really intent on doing this, 
there is basically very little we can do about it. They can 
penetrate eventually at some point or another. Is that the 
case? Are we at the mercy of these hackers? And is there 
anything we can do to prevent it? I mean, America should not be 
at the mercy of folks that may have an intent to do something 
and cannot be stopped. Is there anything that we can do to stop 
this?
    Mr. MARSHALL. If the question is, is there a magic bullet 
or a silver bullet that will put an end to this, the answer is 
no. There are things that you can do, an escalating series of 
things you can do to try to avoid becoming a victim, everything 
from simple awareness and then a ``Do not click this email'' 
campaign, all the way up to the most sophisticated technical, 
advanced technical protections and defenses that include 
encryption and routine backups. It depends upon what kind of 
money you are willing to spend, but I do not believe that there 
is a magic bullet that will just make this problem go away.
    Mr. ESPAILLAT. Thank you, Mr. Chairman. I yield my time.
    Chairman CHABOT. Thank you. The gentleman yields back.
    As the hearing comes to a close, we want to again thank our 
witnesses here this morning for, and now right after this 
afternoon as well, for being here and going over one of the 
topics that this Committee considers to be one of the chief 
challenges that small businesses face across the country. And 
we appreciate the information that you have given us.
    We also appreciate, the chair appreciates working with the 
Ranking Member on legislation, H.R. 4668 as it moves forward.
    I would ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    And if there is no further business to come before the 
Committee, we are adjourned. Thank you very much.
    [Whereupon, at 12:04 p.m., the Committee was adjourned.]
    
    
    
    
                            A P P E N D I X



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                                 [all]
</pre></body></html>
